<html>
<title> - NINE YEARS OF BRUTALITY: ASSAD'S CAMPAIGN AGAINST THE SYRIAN PEOPLE</title>
<body><pre>[Senate Hearing 116-241]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-241

              NINE YEARS OF BRUTALITY: ASSAD'S CAMPAIGN AGAINST 
                           THE SYRIAN PEOPLE

=======================================================================

                                 HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 11, 2020

                               __________


       Printed for the use of the Committee on Foreign Relations
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-985 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                       
                        


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHN BARRASSO, Wyoming               CHRISTOPHER MURPHY, Connecticut
ROB PORTMAN, Ohio                    TIM KAINE, Virginia
RAND PAUL, Kentucky                  EDWARD J. MARKEY, Massachusetts
TODD YOUNG, Indiana                  JEFF MERKLEY, Oregon
TED CRUZ, Texas                      CORY A. BOOKER, New Jersey
DAVID PERDUE, Georgia
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                                (ii)        

 
                           C O N T E N T S

                              ----------                              
                                                                   Page

Risch, Hon. James E., U.S. Senator From Idaho....................     1

Menendez, Bob, U.S. Senator From New Jersey......................     3

Caesar, Syrian Military Defector.................................     5
    Prepared Statement...........................................     6

Alshogre, Omar, Director of Detainee Issues, Syrian Emergency 
  Task Force.....................................................    19
    Prepared Statement...........................................    21

Al Saleh, Raed, Head of the Syria Civil Defence [White Helmets]..    25
    Prepared Statement...........................................    27

                                 (iii)

  

 
                    NINE YEARS OF BRUTALITY: ASSAD'S 
                   CAMPAIGN AGAINST THE SYRIAN PEOPLE

                              ----------                              


                      Wednesday, March 11, 2020

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Rubio, Gardner, 
Romney, Young, Perdue, Menendez, Cardin, Shaheen, Udall, Kaine, 
Merkley and Booker

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. The Senate Foreign Relations Committee will 
come to order. We are under special provisions today because of 
the security for our first witness today. I want to remind 
everyone that there will be no camera use and no cell phone use 
during this hearing. This will be strictly enforced by security 
that is here and by staff of the Foreign Relations Committee. 
We would ask everyone to keep that in mind and respect the 
security of the individual that we have asked to testify here 
today.
    This month we marked a solemn ninth anniversary of the 
Syrian conflict. Nine years of barrel bombs and chemical 
weapons; 9 years of targeted attacks against medical and 
humanitarian workers; 9 years of the most horrific human rights 
atrocities of our time. Make no mistake, accountability for 
these crimes lay squarely on the shoulders of Syria's brutal 
dictator, Bashar al-Assad, and his Russian and Iranian backers, 
as well as Lebanese Hezbollah.
    Assad has weaponized every facet of the Syrian government 
against his own people on an industrial scale. Over 560,000 
people have been killed. Over 100,000 Syrians have perished in 
Assad's notorious prisons, and Americans, including Austin 
Tice, have been wrongfully detained. Today we reiterate the 
demand for his immediate release and return.
    For too many young Syrians, war and suffering is all they 
have ever known. Together with their parents, they suffer the 
physical and mental wounds of prolonged warfare. Those who left 
as refugees risk arbitrary arrest, interrogation and torture by 
the regime's secret police upon their return. The conflict has 
now entered an intensified stage with Assad, Russia, and Iran 
mounting a brutal and continuous offensive against Syria's last 
remaining opposition stronghold, Idlib.
    More than 960,000 civilians have been newly displaced since 
December, many of whom fled other parts of Syria and now find 
themselves caught in a death trap. Beyond the onslaught of 
tanks and bombs and other weapons of war, they face the 
immediate risk of freezing to death during a brutal winter 
without access to adequate shelter and food.
    Russia behaves as both an arsonist and a firefighter. Putin 
pours gasoline on the flames of conflict while simultaneously 
seeking a seat at the table by holding sham talks in Astana. 
The U.N. recently confirmed what we have already suspected: 
that Russia, in addition to Assad, is committing more crimes in 
Syria. Russian planes were carrying out attacks in order to 
kill first responders and bomb hospitals to destruction.
    It's clear that the Russian government has no interest in 
bringing peace or helping the Syrian people, but sees the 
conflict as a way to grow its geopolitical importance. Russia's 
quest for relevance is killing Syrians. Iran, which continues 
to flood Syria with fighters, is no better.
    This cannot go on. The Syrian people deserve better, much 
better. We remain committed to the Geneva-brokered peace 
process. U.N. Security Council Resolution 2254 remains our 
guide post--a complete ceasefire, a Syrian-led political 
process, a new constitution drafted by Syrians, and free and 
fair elections.
    I was pleased to see the U.N. Constitutional Committee 
convene, even if the regime has resisted the committee's work 
at every turn. Assad is not serious about peace. He benefits 
from the status quo and will stop at nothing to remain in 
power. A deeply fractured Syria will never heal absent 
accountability and reconciliation. The regime and its 
supporters must be held accountable for the atrocities they 
have perpetrated.
    This is precisely why we championed the Caesar Syria 
Civilian Protection Act, which authorizes sanctions against the 
Assad regime and its backers. It has been a long road to get 
here. I was proud to sponsor this legislation as a stand-alone 
bill last year and to pass it out of committee. It was hard 
work to get it included in last year's annual defense bill, but 
we prevailed and it is now law.
    We are greatly honored to have the namesake for this bill 
here with us today. What began with one man's courageous effort 
to expose Assad's atrocities has become the means by which we 
will hold Assad and his backers accountable. As with any law, 
implementation is the key. We are working closely with the 
administration to ensure that the Caesar Act is fully 
implemented and impunity is ended.
    In the face of such depravity and destruction, the strength 
and resilience of the Syrian people gives me hope. Our 
witnesses today are remarkable examples of human bravery and 
grit. They have endured immeasurable suffering, yet continue to 
work tirelessly to end impunity and protect the innocent.
    As we proceed today with the hearing, we are going to go 
without cameras of any kind, and without cell phones. There 
will be no recording. This is at the request of our witness, 
and that request is well-taken, and we're going to honor it. 
What will happen is there will be a transcript made of his 
testimony, which will be available shortly after the hearing.
    So with that, Senator Menendez for your opening remarks 
please.

                  STATEMENT OF BOB MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Well, thank you Mr. Chairman, for holding 
this hearing to commemorate and to try to grapple with the 
horrific atrocities the Assad regime, with its Russian and 
Iranian backers, is perpetrating against innocent people in 
Syria.
    Our witnesses today have literally risked their lives to 
bear witness to crimes against humanity, to expose the 
barbarity of a dictator who, for almost a decade, has fomented 
a reign of fear, repression, and torture against his own 
citizens. A ruthless leader who has not only cooperated with 
terrorists to incite violence, who has murdered innocent 
civilians in cold blood, but who has barbarously bombed 
hospitals and medical workers to prevent them from providing 
relief.
    Your courageous act, Caesar, ensures that the world can and 
must hold the Assad regime and its Russian and Iranian backers 
accountable for their crimes. Your continued efforts to provide 
relief to the millions who need it remind us that we must 
continue to press for a political solution and to provide for 
those in immediate need.
    Nine years ago, 9 years ago, peaceful demonstrators took to 
the streets to demand change and accountability from their 
government. Their calls for democratic reform were met with a 
vicious response that has turned into a brutal, devastating 
campaign. We know the numbers. More than half a million 
innocent people killed. Millions and millions forcibly 
displaced from their homes, many fleeing multiple times from 
the places in which they sought refuge.
    Last month, headlines screamed about the hundreds of 
thousands of innocent people fleeing for their lives in Idlib. 
People burning doors they had ripped from the hinges of their 
homes to stay warm. Babies who survived targeted bombing 
campaigns only to freeze to death in their parents' arms. And 
yet the world seems paralyzed to act. We talk of humanitarian 
relief, and Russia and Turkey continue to calculate the 
implementation of yet another ``ceasefire.'' But we need 
serious leadership and commitment. As Raed says in his written 
testimony, ``What is needed is the political will to act to 
protect civilians.''
    Unfortunately for 9 years, the United States has not 
displayed that political will. American efforts at promoting a 
political process in the early years of the conflict were 
overwhelmed by the more invested Russian, Iranian, and Turkish 
governments. Facing little more than rhetorical pushback and 
calling on support from terrorists and Russian airpower alike, 
the Assad regime has pushed forward with its atrocities. 
Following the withdrawal of U.S. troops last year, Turkey 
stepped up its military involvement, pouring more fuel onto a 
raging fire and undermining our ability to respond.
    Over the years, this committee and Congress as a whole have 
taken a number of steps to encourage both this Administration 
and the last to clearly assert American leadership in standing 
with the Syrian people, from authorizing a range of diplomatic 
and military tools, to an AUMF in the face of the regime's 
first chemical weapons attack, to support for humanitarian 
assistance and refugee programs.
    Unfortunately, we have not seen assertive policies from 
either of the past two administrations. However, inaction 
itself is a decision. One that carries consequences.
    The Administration must make some decisions now. Will and 
how will they work to protect civilians to ensure that they 
receive critical humanitarian aid. While Ambassadors Jeffrey 
and Craft's visit to Idlib sends an important message that we 
are not totally deaf to the cries of civilians in desperate 
need, we must ensure that aid can be delivered, including a 
strategy at the U.N. to renew critical border crossing access 
for humanitarian operators.
    And on the questions of accountability, the Administration 
must rigorously implement the Caesar Civilian Protection Act. 
It must commit resources to holding the Assad regime and 
Russian and Iranian facilitators accountable for their crimes 
against humanity.
    We must find a way to support the millions of refugees and 
displaced people in Syria. But being a leader also requires 
setting an example. The Administration has destroyed this 
country's rich history of serving as a beacon of hope and light 
to all those oppressed. And when we close our doors, we not 
only turn our backs to those in need; we send a global message 
that it is acceptable to do so as well.
    Our witnesses here, of course, cannot answer these 
questions. They have done extraordinary things--from exposing 
the regime's barbarity, to enduring that same barbarity and 
living to talk about it, to rushing towards the scene of an air 
strike to save lives. But they cannot change U.S. policy. I 
hope, however, their powerful testimonies will compel us to do 
more. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you Senator Menendez. We are now going 
to turn to our first witness, Caesar. For those of you in the 
room, you can see the photos displayed from the Caesar file and 
recent photographs from Idlib province. These are just a few of 
the thousands of images, thousands of images, that Caesar 
smuggled out of Syria to show the true brutality of the Syrian 
regime.
    Caesar is a Syrian military defector and former military 
police photographer who smuggled out almost 55,000 photos of 
detainees who were tortured and executed in Assad regime 
intelligence branches and prisons.
    Caesar is the namesake of the Caesar Syria Civilian 
Protection Act. He continues to be a key witness to 
prosecutions against war criminals within the Assad regime, as 
well as a voice of conscience on behalf of the hundreds of 
thousands who remain detained by the Assad regime.
    Caesar, we are honored to have you with us today. Now we're 
going to take just a moment to turn the cameras off for 
Caesar's testimony and thank you all for attending today.
    The prohibition is not only on photography. It is also on 
voice recording. So with that Caesar, the floor is yours.

         STATEMENT OF CAESAR, SYRIAN MILITARY DEFECTOR

    Caesar. [Interpreted.] First of all, I would like to thank 
you all. And I want to thank Chairman Risch and Ranking Member 
Menendez for giving me the opportunity to present the Syrian 
tragedy to this honorable committee.
    I am Caesar. I worked as a forensic photographer in the 
military police. Our work since the beginning of the Syrian 
revolution and for years since the beginning of the Syrian 
revolution was to take photographs of the bodies of victims who 
have been detained, tortured, and murdered in the Syrian 
regime's dungeons.
    My work, my daily work, was mixed with pain and sorrow, 
sorrow and pain at the painful scenes that I saw every single 
day on the bodies of the victims, including men, women, and 
children. The signs of torture were clear on the brittle 
bodies, including children, women, and men. You can see the 
torture on their bodies, including burning, strangulation, and 
whipping with electric cables.
    I risked my life and the life of my family to be able to 
escape Syria under very tough circumstances filled with fear 
and terror. Fearing that we may be arrested at any time by the 
regime's security forces and fearing that my fate would be the 
same fate as the victims that I photographed. I came out of 
Syria carrying the most powerful documentation and files that 
incriminate and document the crimes of the Assad regime against 
detainees.
    Five years have passed, and we have left no stone unturned 
in order to bring the voice of these victims that have been 
arrested and murdered in Assad's prisons with extreme brutality 
and their only fault was that they came out asking for freedom 
and dignity. We have worked and we continue to work in order to 
bring the pleas and the screams of tens of thousands; the pleas 
and the screams of tens of thousands that remain in the 
detention centers; and that does not just include Syrians 
citizens, but it also includes American citizens.
    They all await the same fate of those that have come before 
them, which is certain death. Our hope has been that, with the 
help of this international community that values human rights 
and freedom, to indict the Syrian regime for its systematic 
machinery of death against the Syrian people and to bring the 
war criminals responsible for these crimes before international 
courts.
    And we hoped that we would be able to free the hundreds of 
thousands of detainees that remain under torture on a daily 
basis in Syrian prisons. But unfortunately, since I left Syria 
about 5 years ago, detentions have only increased and killing 
has only increased in the same time in the same places at the 
hands of the very same war criminals. And the reason simply is 
that the Assad regime considered the inaction of the 
international community in the mere statements of condemnation 
and concern as a green light for him to continue his crimes 
against the Syrian people, and what is happening now in Idlib 
province from a complete siege and the shelling with all types 
of weapons--some that are internationally banned weapons, with 
the intention of displacing and killing its civilians and 
occupying their villages.
    This is the biggest example and the biggest evidence that 
this bloody regime only understands the language of death and 
this feeling of blood. The Syrian regime would not dare to 
commit all of its war crimes if it was not for the strong 
military, economic, and diplomatic support of Russia and Iran.
    Russia and Iran, who have increased their criminality with 
impunity. And the reason, again, that Iran and Russia are doing 
this is that the international community has yet again been a 
bystander to what is unfolding in Syria, while only issuing 
statements of concern.
    Honorable Senators, I want to take this very powerful and 
important opportunity, I want to take this opportunity on my 
behalf and on behalf of the Caesar team, to express our sincere 
gratitude to the free American people represented by you all. 
And I want to thank all of the humanitarian organizations in 
the United States that have supported the passage of the Caesar 
Act. And I also want to thank the U.S. Holocaust Memorial 
Museum. The Caesar law has become the final ray of hope for the 
Syrian people in the absence of any military or political 
solution.
    This law is a very powerful message to all who support the 
Assad regime. It is a reminder to all of them that time for 
accountability and justice is coming and that no matter how 
long oppression lasts, that there is no doubt that truth will 
prevail in the end.
    Dear Senators, the Caesar law is an important step in 
helping to end the suffering of the Syrian people and to help 
grant the Syrian people's wishes of freedom and dignity. But 
this needs hard work to ensure that the Caesar Act is 
implemented to the letter by the U.S. government.
    I thank you all once again for your honorable and moral 
support of the Syrian people. And I wish for you and for your 
nation to live always in peace and in security, and that you 
always have freedom and success.
    Thank you all.
    [The prepared statement of Caesar follows:]

                      Prepared Statement of Caesar

    First of all, I want to thank you all and I want to thank Chairman 
Risch and Ranking Member Menendez for giving us the opportunity to 
present the Syrian tragedy in this honorable Committee. I am Caesar. I 
worked as a forensic photographer in the military police. Our work 
since the beginning of the Syrian revolution was to take photographs of 
the bodies of the victims who had been detained, tortured, and murdered 
in the Syrian regime dungeons. My daily work was mixed with pain and 
sorrow due to the painful scenes that I saw every day on the bodies of 
the victims including men, women, and children. The signs of torture 
were clear on their brittle bodies including burning, strangulation, 
and whipping with cables. I risked my life and the life of my family to 
be able to escape Syria under tough circumstances of fear and terror. 
Fearing that we may be arrested by the regime's security forces and 
fearing that my fate would be the same fate as the victims that I 
photographed. I came out of Syria carrying the most powerful 
documentation and files that incriminate and document the Assad 
regime's crimes against detainees. Five years have past, and we have 
left no stone unturned in order to bring the voice of these victims 
that have been arrested and murdered in Assad's prisons with extreme 
brutality and their only fault was that they came out asking for 
freedom and dignity. We have worked and we continue to work in order to 
bring the pleas and the screams of tens of thousands of those that 
remain in detention from the Syrian people and those of other 
nationalities including American citizens that await the same fate as 
those before them which is certain death. Our hope has been that, with 
the help of the international community that values human rights and 
freedom to indict the Assad regime for his systemic machinery of death 
against the Syrian people and to bring the war criminals responsible 
for these crimes before international courts. And that we would be able 
to free the hundreds of thousands of detainees that remain living under 
torture on a daily basis in Syrian prisons, but unfortunately and since 
I left Syria 5 years ago detentions have increased. Killing has 
increased in the same places and in the same ways and at the hands of 
the very same criminals. And the reason simply is that the Assad regime 
considered the inaction of the international community and the mere 
statements of condemnation as a green light for him to continue his 
crimes against the Syrian people and what is happening today in Idlib 
from the siege of cities and targeting civilians with all types of 
weapons including internationally banned weapons in order to displace 
its people and occupy its villages is the biggest evidence that this 
regime--that this bloody regime--only understands the language of death 
and spilling of blood. The Syrian regime would not dare commit all of 
its war crimes if it wasn't for the strong military, economic, and 
diplomatic support of Russia and Iran, who have increased their 
criminality with impunity. And the reason is that the international 
community has been a bystander to what's unfolding in Syria while only 
issuing statements of concern. Honorable Senators of the United 
States--I want to take this opportunity on behalf of myself and the 
Caesar team to express our sincere gratitude to the free American 
people represented by you all. I want to thank all of the humanitarian 
organizations in the U.S. that have supported the passage of the Caesar 
Act. And I want to thank the U.S. Holocaust Memorial Museum. The Caesar 
Law has become the only ray of hope for the Syrian people in the 
absence of any military or political solution. This law is a powerful 
message to all who support the Assad regime that the time for 
accountability and justice is coming and that no matter how long 
oppression lasts, there is no doubt that truth will prevail. Dear 
Senators--the Caesar law is an important step in helping end the 
suffering of the Syrian people in order to grant their wishes of 
freedom and dignity. But this needs hard work to ensure that the Caesar 
Act is implemented to the letter by the U.S. government. I thank you 
all once again for your honorable and moral stand support of the Syrian 
people and I wish for you and for your nation to live always in peace 
and security and that you always have freedom and success. Thank you.

    The Chairman. Thank you, very much Caesar. Thank you for 
that powerful testimony. We certainly admire your bravery and 
your willingness to come before us and tell the world what you 
have seen and documented through photographs.
    But we are now going to do a round of questions, and we'll 
start with Senator Menendez.
    Senator Menendez. Well, thank you, Mr. Chairman and Caesar 
thank you for, as I said, your extraordinary courage, work, and 
the dramatic testimony that is not only what you said, but what 
we can see, which if left to Assad and his supporters would be 
hidden from the rest of the world.
    Let me say, you mentioned that the Caesar Syria Civilian 
Protection Act was a ray of hope. And when I worked with the 
Chairman to help pass it, I agree it was a ray of hope. But it 
has been law now nearly 3 months, and it was discussed far 
longer than that. Yet we have not seen an imposition of 
sanctions mandated in the bill or even released a list of 
individuals to be targeted.
    What effect does a further delay in implementation, in your 
view, have on those individuals and entities that would be 
subject to sanctions under the law? What message would a 
further delay in implementation send to both the victims and 
perpetrators of these heinous crimes?
    Caesar. [Interpreted.] Thank you for your question. Even 
when I first gave my testimony back in 2014, I spoke to 
detainees that were there at the time. The fact that the U.S. 
Congress at that time showed the Caesar photos, gave us the 
opportunity to testify, that alone actually helped lower the 
torture of those in there because those criminals thought that 
accountability was coming, that punishment was coming.
    If the bill is not implemented quickly, then that would 
result in sending the wrong message to both the criminals and 
those that are looking at it as a ray of hope. And so, we hope 
that all of its deadlines are met.
    Any delay in the implementation of the Caesar Act will be 
considered as another green light by the Assad regime and his 
supporters to continue what they're doing.
    Senator Menendez. Okay, let me just ask you then one other 
question. The Elie Wiesel Genocide and Atrocities Prevention 
Act, which was enacted in 2019, recognizes that atrocity 
prevention and response are critically important in the U.S. 
national interest.
    The law requires the President to submit reports to 
Congress that include a review of efforts to prevent and 
respond to atrocity crimes. That, as well as the fact that 
Congress has authorized the Secretary of State to provide 
appropriate assistance to support entities that collect, 
document, and protect evidence of crimes in Syria and preserve 
the chain of custody of such evidence. Groups including yours, 
inside and outside of Syria, have been collecting such 
evidence.
    What assistance could and should the United States 
government provide to groups, such as yours, in their 
documentation efforts and what would you recommend us to do 
with reference to preventing and responding to atrocity crimes 
in Syria?
    Caesar. [Interpreted.] First of all, there are amazing 
organizations like ours that work on documentation, but due to 
the lack of funding, many of these civil society groups and 
organizations have had to suspend some of their work due to the 
lack of capacity.
    There must be support to those organizations doing that 
work, and just as importantly, there must be support to the 
families of victims and witnesses that are part of key 
prosecutions and documentation against the Assad regime.
    And as far as atrocities unfolding in Syria, our number one 
priority even before and as we pursue justice, is for the 
killing to end. And that will only happen with true leadership 
from the United States.
    Senator Menendez. Thank you very much.
    The Chairman. Thank you Senator Menendez. Senator Rubio.
    Senator Rubio. I also want to echo and thank you for being 
here today. I wanted to briefly just recount a couple points 
that I think are critical here.
    The first is that it has to be abundantly clear to 
everybody that the Assad regime has conducted brutal, 
coordinated military attacks in which innocent civilians were 
not just collateral damage. They were not just caught in the 
crossfire between two military forces. They were intentionally 
targeted.
    They are the intentional targets of these attacks, meaning 
when they are dropping bombs, they are trying to kill 
civilians. When they were using chemical weapons, they were 
trying to kill children. Just in the past month, we've seen 
this in Idlib.
    Remaining in power, if that's in fact how this turns out 
for Assad as part of a deal with whoever it is he tries to cut 
it with, cannot bestow immunity on this regime from 
prosecution, from accountability for what they have done.
    I also think it's important to point out that Vladimir 
Putin is not simply supportive of Assad. They are not just 
protecting Assad. Vladimir Putin is an active participant in 
these efforts. He has conducted and directed the carrying out 
of direct attacks against civilians, against children, against 
the elderly, against aid workers. He is not just providing the 
weapons for the attack. He is using his weapons, his planes, 
his bombs.
    And this has to continue to be documented. This has to 
continue to be pointed out for the world to see and understand.
    The other point that I would make is that Assad--and I 
think we thank you as much as anyone in the world for this. You 
have provided evidence that what Assad has done is he has 
industrialized a process of arrest, torture, and murder. A 
system that the United Nations has defined as a process of 
extermination.
    We don't know the numbers. Some of the estimates say 
128,000 people have disappeared, and of course they're presumed 
dead, that at least 14,000 we know of that have died from 
torture. The number is certainly much higher. Many others, of 
course, die from the horrific conditions. And then the stories 
that have come out from various sources just take your breath 
away.
    I just tried to scribble some of them down here and in the 
time we've had. But it's important for people to hear this 
despite how uncomfortable it is. The story of a teenager doused 
with fuel and set on fire, who died 21 days later after 
suffering.
    A guard who apparently calls himself Hitler, who organizes 
these grotesque dinner theaters where prisoners were brought 
out. Some are forced to kneel to act like tables and chairs. 
Some are forced to play the role of animals; bark and crow or 
whatever sound he wants them to make and if the sound isn't 
good enough, he beats them. Women and girls repeatedly raped. 
Stories of bloodstained floors from violent rapes.
    It's a stunning testament to what's happening in our time, 
in our planet, and all with the belief that he is going to 
retain power, and Vladimir Putin will protect him at the United 
Nations with veto power at the Security Council.
    It's sad that many nations, and sometimes our own, are more 
concerned about the disruption created by migrant flows, a 
legitimate issue, and some of the other things that surround 
this. But we are witnessing the single worst campaign of 
violence and torture that the world has seen in 70 years, in 
our time.
    And my hope is that the testimony you have provided us in 
the past and here today, that these photos that stand behind 
us, that they will be part of the continuing documentation of 
these crimes so that the people responsible for this at some 
point, some way, somehow will be held accountable and will 
never live in peace for the rest of their lives, on this earth.
    That anywhere they travel, everywhere they go, they must 
worry about the fact that they will be brought to justice. It 
is my sincerest hope that that will be the case, and the world 
will have a great debt to you for having provided so much 
information.
    And I guess my last point is, I do think it's important for 
our nation to lead on these matters. I thank the Chairman, the 
Ranking Member, our colleagues in the House, so many that 
worked to pass the Caesar bill. But now we have to implement 
it. Because if we don't implement it, it's just words on paper.
    The Chairman. Please.
    Caesar. [Interpreted.] Dear Sir, despite all of these 
different, horrific times of killing that is happening by the 
Assad regime and the torture, and all these crimes that you 
mentioned, Sir. Unfortunately, his supporters are right now 
trying to re-integrate him into the international community, 
somehow bring him back to the community of nations.
    And what we hope today from the American government, is to 
ensure that the Assad regime is never normalized. Is never 
brought back into the international community and that we 
implement the Caesar law to the letter. Thank you.
    The Chairman. Thank you. We want to assure you we will do 
everything we can to see that that happens. That he is not 
integrated into the international community. Thank you so much. 
Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. Let me thank 
Caesar for his courage for being willing to come forward. When 
the photographs were first released in 2014/2015, I said then 
that unfortunately, statistics are not going to move the 
international community. You have to personalize it. And the 
photographs that you released did that and I was hopeful that 
when that release took place, we would have seen the type of 
international response that would have ended the horrific 
circumstances under the Assad regime in Syria. But that was not 
the case.
    I serve on the U.S. Holocaust Memorial Museum Board as one 
of the Congressional representatives. I was telling my 
colleagues, when you look at these photographs, it reminds you 
of the photographs during World War II, when we said never 
again. And we have not carried out that mission.
    So I thank you very much for your courage because we need 
to be reminded of our responsibility to humanity. I think this 
committee has done incredible work in passing laws. You 
mentioned the Caesar bill that we passed and thank the 
Chairman, Senator Risch and Senator Menendez for their 
leadership in guiding that legislation to completion. It's not 
easy to get bills to the finish line here in the United States 
Congress.
    I'm also pleased about the atrocity prevention, Elie Wiesel 
Genocide and Atrocities Prevention Act. Senator Young, I thank 
him. The two of us worked on that legislation and it provides 
the wherewithal to try to prevent atrocities so we don't have 
to deal with accountability and the humanitarian aftermath.
    We also had enacted into the National Defense Authorization 
Act legislation that Senator Rubio and I worked on, the Syria 
Accountability Act, that requires our administration to prepare 
the evidence necessary to hold the Assad regime accountable for 
their crimes against humanity.
    So we have passed the bills here in the Congress. It's now 
critically important for the U.S. leadership internationally to 
implement those bills. So first and foremost, we want to end 
the violence in Syria, to bring an end to the misery of war. We 
need to provide humanitarian aid to those who are at risk, and 
that needs to be done.
    But there is a third part that you have mentioned that I 
just want to underscore and that's accountability. 
Unfortunately, when we resolve conflicts or we provide ways of 
reducing the violence, we usually put the accountability as the 
last issue to be dealt with, and sometimes it is never dealt 
with. As a result, the perpetrators get away with what they 
did, and there will be another atrocity in another part of the 
world when people see they can get away with this.
    So I just really want to underscore this point and give you 
a chance to respond. If, in fact, the Assad regime is not held 
accountable, even if we end the conflict, what message does 
that send in your region of the world and throughout the world 
as to future conflicts, as to whether there are any bounds as 
to how civilian populations and human rights are handled during 
conflict, if we don't hold the Assad regime accountable?
    CAesar. [Interpreted.] The message if no accountability for 
the Assad regime happens, regardless if the war stops or not, 
if we do not pursue accountability, the message that that sends 
to the entire world is a message to every tyrant and dictator 
and war criminal that they can go on and commit these 
humanitarian atrocities against defenseless civilians and that 
they themselves, as well, will never be held accountable.
    It is a green light for every other war criminal.
    Senator Cardin. I agree completely, and that's why we need 
to make sure that the United States is in the leadership 
internationally, to make sure that we take care of ending the 
violence, we provide humanitarian aid, but we must insist upon 
accountability for war crimes.
    Thank you Mr. Chairman.
    The Chairman. Thank you, Senator Cardin. Senator Young.
    Senator Young. Caesar, thank you. Thank you for your 
selfless courage. Thank you for shining a light on these 
horrific atrocities that truly shock the conscience of the 
civilized world. Thank you for reminding us in graphic detail 
about what has happened and what is happening in Syria; the 
poisonings, the rapes, the extrajudicial killings, the bombing 
of families, the targeted killing of children.
    You've helped many of us here in the United States 
understand Assad in a broader context. And it's been broadly 
understood by many of us that Assad was a ruthless political 
actor for some period of time. But, there has been less of a 
popular understanding that he is relentlessly and 
systematically abused and violated people's fundamental human 
rights. That he slaughtered thousands of our fellow human 
beings.
    Caesar, how much do the Syrian people know about Assad's 
crimes? And as a former member of the military, I ask you 
relatedly, how should we view your fellow soldiers who have 
remained in the military but may have different political 
views?
    Caesar. [Interpreted.] For 40 years, the Syrian people have 
suffered from the crimes of the Assad regime and his father 
before him. And what happened in Hama in the `80s is also 
another horrific example of massive atrocities committed. But 
at that time there was not media coverage, so the entire world 
was not able to know as the Syrian people know the brutality of 
the Assad regime.
    What is happening today in Syria is a miracle. Because 
Bashar al-Assad and his father, have ruled for well-over 40 
years. They consider the Syrian people as animals in their 
farm. So the Syrian people, to answer your questions, for a 
long time understand the full scale of the brutality in the 
machinery of death of the Assad regime.
    And I believe that Bashar al-Assad, if it was not for 
Russia and for Iran, would not be ruling Syria right now. Any 
free person, any person that is a true patriot of Syria or has 
any humanity that has been part of the military has defected, 
and others that are still there must defect from this regime's 
brutal military.
    Senator Young. That is an important message.
    Caesar. [Interpreted.] And so, it is the responsibility of 
every honorable person, every Syrian patriot, any Syrian 
military person with any humanity to defect from the regime, 
and the fact is the lack of action by the international 
community actually does not encourage anybody defecting because 
they fear that Assad will continue to rule with the world 
standing by.
    Senator Young. This Caesar legislation that I have worked 
with my colleagues through the great leadership of the Chairman 
and Ranking Member and Senator Rubio. I think it is essential 
that we see to it that that legislation is implemented.
    If there are other things you believe that the United 
States should be doing in furtherance of addressing these gross 
human rights violations, I hope you will volunteer those to us 
in the course of these proceedings.
    Caesar. [Interpreted.] We call for the quick implementation 
and keeping up with the deadlines and full implementation to 
the letter of law of the Caesar bill. But what takes even 
bigger priority than that are the people of Idlib. Idlib is 
almost 4 million civilians in an ever shrinking space. There 
must be a no-fly zone or there must be any way of stopping the 
airplanes of Russia and the Assad regime from bombing the 
civilians that have nowhere to run.
    We know and the whole world knows that the United States is 
the leader of the world and if it takes a leadership role, the 
rest of the world will follow. The United States to us is the 
leader of the free world.
    Senator Young. Thank you, Caesar.
    The Chairman. Thank you Senator Young. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. Caesar, thank you 
for being here today and for your willingness to publicly call 
out the Assad regime for its atrocities.
    I would like to ask you a little bit about the detainees. 
And do we know how many people are estimated to still be in 
detention in prison held by the Assad regime?
    Caesar. [Interpreted.] Senator, I do not know the exact 
numbers, and I think most people do not know the exact numbers. 
But according to many of the organizations and the experts that 
we work with monitoring this, there is by conservative 
estimate, about 215,000 people remaining in Assad's prisons.
    Senator Shaheen. And are those prisons all across Syria or 
are they concentrated around Damascus and the areas that Assad 
has controlled for most of this war?
    Caesar. [Interpreted.] In every part of Syria that the 
Assad regime controls, we have these intelligence branches, 
detention centers, and prisons.
    Senator Shaheen. And I know that many of the detainees are 
people who Assad views as enemies, as leaders of the civil war. 
But has he rounded up other Syrians and is he detaining other 
Syrians?
    Caesar. [Interpreted.] At the beginning of the Syrian 
revolution, I was in Syria working. I would see the people 
being detained. They would bring them to the military police 
headquarters where I worked. They are arrested randomly and 
arbitrarily at checkpoints that are all over Damascus.
    If, for example, your cellphone had in its history on 
YouTube a single patriotic song that doesn't praise Assad, 
that's enough to be arrested and never seen again. Even if 
there's a picture of the revolutionary flag, even that's good 
enough to be arrested.
    Some people would put some of the songs, some of them that 
are just patriotic songs, not even thinking of the political 
implications, just something that is a good song. And that was 
another reason that many of them were arrested.
    And there are so many people. If you look at the pictures 
that is a child, he's done nothing. And the lady behind you and 
also elderly that were farmers or just people that were living 
their lives.
    So these hundreds of thousands that are in Assad's regime 
prisons, the vast majority of them played no role in even being 
any part of any armed opposition, and many of them didn't even 
protest. They were just regular Syrian people arrested for 
random, arbitrary reasons.
    Senator Shaheen. Your photographs will be very important, 
as there is an international effort which I hope will come at 
some point to hold Assad and the other perpetrators of these 
crimes accountable for what they've done. I also believe that 
Russia and Iran are responsible for war crimes: the bombing of 
hospitals of aid workers, of children in buses, and again, as 
you say, I believe all of that was deliberate.
    Is there evidence that's been collected that you're aware 
of that can be used to hold those, Russia and Iran, accountable 
for what they have done?
    Caesar. [Interpreted.] The Syrian people have been very 
creative in making sure that they document what is happening to 
them. For me personally, I am focused in my expertise on my 
photos in my files, so I don't have that.
    But I can assure you that the Syrians every day are 
documenting what is happening to them also at the hands of 
Russia and Iran.
    Senator Shaheen. Thank you and just have a final question. 
I know that you are concerned about your security. Is that 
because there is reason to believe that Assad has assassins who 
would be interested in murdering you?
    Caesar. [Interpreted.] The Assad regime but not only the 
Assad regime; Russia and Iran as well. And I will give you 
example of the Russian spy that was killed in the United 
Kingdom by the Russians.
    So I believe all those three criminal regimes are people 
that are of concern for me.
    Senator Shaheen. Thank you.
    The Chairman. Thank you, Senator Shaheen. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman. And thank you, 
Caesar, for being here today and sharing. Years ago, I saw a 
front page story on a magazine. I think it was Time magazine. 
It was a long time ago. It had a picture of a BlackBerry 
cellphone on. It tells you how long ago it was.
    The headline of the story was something like this. ``Could 
the BlackBerry have prevented the Holocaust?'' or something 
like that. It was a long time ago.
    And the idea of the story was that a picture or a text or 
an email sent on that BlackBerry about what was happening could 
have brought international confirmation to what was happening 
and hopefully international condemnation and action to end the 
atrocities.
    But today we know with more clarity the answer to that 
front page story because we have pictures today. We have 
witnesses, we have documentation, and we have the death full of 
atrocity. And yet the murder goes on.
    And so, the BlackBerry or today's equivalent, has not 
stopped the grotesque violation against humanity. But the 
knowledge that your pictures, your experience, your testimony 
cannot be erased from humanity's memory. And so, now it's up to 
this Congress, to responsible global leaders to take these 
pictures, this testimony of these witnesses, these atrocities 
to stop the extermination. To prove true that we can actually 
take knowledge and act to end the depravity. To engage the 
world in active solidarity against depravity, in defiance 
against the idea that the blood of Assad's victims could 
somehow be washed away and forgotten through complicity, 
sanitized by countries willing to be active participants in the 
complicity.
    Cellphones and cameras together don't stop tragedy alone, 
and they haven't. That's up to us to act. To do the hard work 
of humanity and for humanity, to carry out sanctions, to build 
coalitions, and to never leave a doubt about who could have 
stopped the tragedy of our time.
    So thank you. And I guess I don't know how to ask this 
question or how to frame it. But given what we see here and 
what we hear from you and what we know is happening and what we 
see in the news and what reports every night share with us, how 
would you describe the condition of hope for the people in 
Syria or the condition of hope in Syria? How would you describe 
hope?
    Caesar. [Interpreted.] I want to start by saying that for 
over 2 years I took photographs every day. I would take on 
average about 30 photos a day. I would cry every single day. 
They died in dark dungeons. I gave them my solemn promise that 
I would bring their voice and that I would give it to 
trustworthy hands. And I believe this is the place where those 
trustworthy hands are to help us get accountability for Bashar 
al-Assad.
    Hope for me and the hope of the whole Syrian people is 
today to be able to implement the only law that has passed, the 
Caesar law. This is one of the very few rays of hope that we 
hold on to. And this ray of hope in this law, for example, 
which is not a magic bullet, is due to the lack of any military 
or political solution or option on the table. The Assad regime 
does not understand diplomacy or negotiations. It only 
understands the credible threat of force and only understands 
negotiating from a position of power.
    He believes in this sort of jungle law, that he can kill 
his way and kill everybody that ever stood against them and 
those that did not. That is the only language that he speaks.
    And the fact is, all of his supporters are just as vicious, 
like Russia and Iran. And so, the only thing that Syrians are 
going on is their hope of an end to the killing.
    Senator Gardner. Thank you.
    The Chairman. Thank you, Senator Gardner. Senator Merkley.
    Senator Merkley. Thank you so much, Caesar for time and 
again, bringing your story and the photos to the consciousness 
of the world.
    The role that you played as a photographer. Why did the 
Syrian regime want to have photos taken of what was happening 
inside the security prisons?
    Caesar. [Interpreted.] There's a longer answer, and I'll 
give you a very brief summary of that.
    First of all, the routine for us as the military policeman, 
before even the uprising, was to take photos of any accidents 
or incidents under the auspices of the Ministry of Defense. 
That was the routine.
    With the beginning of the revolution, there was a bit of 
chaos within the regime's intelligence branches and security 
apparatus. So one point is, no one, I think, sat and thought 
about the danger of what we were doing. We were documenting 
every single death that was happening. So we continued our 
regular, actual routine because all of these people that were 
being killed on a mass scale were being killed under the 
auspices of the Ministry of Defense.
    And I can tell you, based on some of the information that 
we work on, the regime continues until today to document the 
crimes that are happening in his prisons because he saw that 
there is no accountability for that.
    We, the Syrian people, understand the viciousness of this 
regime.
    Senator Merkley. As you did this work and you were inside 
the institution and you were so deeply disturbed by it all, did 
you sense that there were many others who were deeply disturbed 
by this process of detention and torture and killing and did 
others find ways to protest or to escape?
    Caesar. [Interpreted.] So I worked in the military police 
headquarters. In our full military police, we had about 5,000 
individuals there. By the time I had left in 2013, after two 
and a half years of doing my job, there was only about 700 or 
500 people left from those 5,000.
    And, you know, even the people that work within the regime 
feared that this criminality could be done to them. In the 
forensic evidence section when we would print the photos, we 
would be afraid that a single tear might inadvertently come 
down our face.
    Because I am afraid, anyone that worked with us, we were 
afraid of each other. If somebody saw an expression of sympathy 
or a tear, because sympathy with a dead child or woman or man 
will result in you being tortured to death.
    And defection, by the way, is not an easy thing to do. A 
lot of my friends broke their own hands inside the office on 
purpose just to have a medical leave, to be able to go to 
another town where his family is and never return. Because we 
did not even have vacations except if there was a serious 
medical condition.
    And in the final period of time, even if you had a terrible 
health issue, you were not even allowed to go and see your 
family, fearing that they would escape. You can live or die in 
the branch that you work in.
    Senator Merkley. So today we do not have present 
representatives of our executive branch of the Trump 
administration. I wish they were here in the room to see your 
pictures. And I hope that this testimony can motivate 
implementation of the Caesar law quickly.
    If they were here, what would you say to them?
    Caesar. [Interpreted.] For 9 years, the United States has 
watched as we have lived under bombardment and torture. We beg 
of you as an administration to do right by the Syrian people, 
to look at the Syrian people as fellow brothers and sisters in 
humanity.
    Simply, I would ask the Administration to, please, end the 
killing in Syria.
    Senator Merkley. Thank you and thank you, Mr. Chairman. And 
I hope we can have representatives from the Administration 
participate in hearings like this whenever possible.
    The Chairman. Thank you Senator Merkley. Senator Romney.
    Senator Romney. Thank you, Mr. Chairman. And thank you, 
Caesar, for being here and for carrying out your vitally 
important work.
    I am moved by your courage, by the passion which you have 
to tell the world of what you have seen and what you have heard 
and what you have experienced. I am moved by your willingness 
to put yourself at risk to hopefully end some of the horror 
which is occurring in your homeland.
    I would note that what you are doing will hopefully not 
only improve our commitment to protecting humanity, but it also 
inspires us who are in this room and around the world. We are 
more courageous as we see your courage. We are more willing to 
speak and to stand for what is right when we see someone of 
your stature who has done so in such an exemplary way.
    What you have photographed and described today is 
overwhelming. The mind simply cannot encompass what we are 
seeing. It is horrifying. It is brutality beyond the 
comprehension of the human spirit to consider.
    I ask at this stage whether the torture and the brutality 
has changed over the 9 years or whether it was as brutal and 
awful from the beginning as it is now?
    Caesar. [Interpreted.] I want to thank you sincerely for 
your kind words. I am sure that the killing and the brutality 
has only increased in Syria over those 9 years. The fact that 
the entire world continues to be a bystander is only 
perpetuating the escalation of the violence against humanity.
    And I know because I served in the Syrian regime, that this 
regime is a coward regime. But they have seen no reason to be 
afraid. He used chemical weapons, including under President 
Obama's administration. There was no response then. They told 
him, ``Give away some of your chemical weapons.'' Is this how 
we punish criminals: that if somebody stabs someone, you just 
take away their knife?
    But we hope that despite that the situation in Syria is 
worse today than it ever was, we have hope in the American 
people and government to put an end to the tragedy of Syria.
    Senator Romney. Clearly, Bashar al-Assad is a butcher, a 
torturer, a war criminal, and should be prosecuted as such if 
we are able to eventually get our hands on him. Have Russia and 
Iran participated in the same form of brutality, which suggests 
that their leaders should be categorized in the same way.
    Caesar. [Interpreted.] First of all, Iranian-backed 
militias and Iranian security forces are entrenched throughout 
regime-held areas of Syria. Many of them are the ones that are 
leading the ground efforts against the Syrian people.
    And Russia, even in a big way as well, has been responsible 
for many crimes. Its air force is responsible for the killing 
of countless civilians and the displacement of many others. And 
so, the president and the leadership of both Iran and Russia, 
are war criminals just like the Assad regime.
    Senator Romney. I would note in my last few seconds, Mr. 
Chairman, that there are some in the world who wonder why we 
are engaged in the world, why America is involved in the 
affairs of the world. And the reason is that when we are not 
involved in the affairs of the world, awful things happen and 
people suffer, and ultimately that suffering affects us even in 
our own homes.
    But even if it were not to do so, we have a responsibility 
as members of the human race to stand for human decency and to 
apply American leadership because we are the leader of the free 
world. I say this not as a member of one party or another. I 
say this as someone who has observed foreign affairs, that this 
nation's leadership is essential to the preservation of human 
rights and human dignity throughout the world and we are 
involved in order to help protect those things.
    The Chairman. Thank you Senator Romney. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman and thank you, 
Senator Menendez for holding this hearing.
    Caesar, thank you so much for coming today. Thank you for 
your bravery and thank you for your real dedication to bringing 
out the atrocities that you have testified to today and I 
understand some of the other panelists will be talking about 
this, too, from what I have read.
    I wanted to give you an example of how justice was brought 
to another situation that might apply here and then ask you a 
question.
    In 2003, the United Nations and the government of Sierra 
Leone jointly agreed to form the Special Court for Sierra Leone 
in order to bring those responsible for violations of 
international humanitarian law and Sierra Leonean law to 
justice. This was in response to many of the atrocities that 
occurred during conflicts in Sierra Leone and which emanated 
from its neighbor Liberia under the control, at the time, of 
Charles Taylor.
    Charles Taylor was indicted and tried in this court many 
years after he fled Liberia in 2003, under pressure from both 
troops from the Economic Community of West African States and 
U.S. troops offshore, he fled to Nigeria, where he was 
eventually captured. A capture that was aided by a $2 million 
reward authorized by Congress in 2003.
    But this was an effort that also had strong international 
backing. The U.N. Security Council played a central role 
authorizing the Special Court to try him in The Hague for the 
crimes he committed. He was tried, convicted and sentenced to 
50 years in prison for war crimes and crimes against humanity. 
Among his crimes were violations of the Geneva Conventions, 
acts of terrorism, murder, cruel treatment of persons, and 
other inhumane acts.
    In 2014, moving forward now, a number of years under the 
leadership of President Obama, the U.N. Security Council 
attempted to take similar action against those who committed 
crimes inside Syria. The Security Council considered a 
resolution to refer the situation in Syria to the International 
Criminal Court.
    U.S. Ambassador Samantha Power argued that the resolution, 
and I'm quoting from her, ``was about accountability for crimes 
so extensive and deadly that they had few equals in modern 
history. It was also about accountability on the part of the 
Security Council. It was the Council's responsibility to stop 
atrocities if it could, and to ensure that the perpetrators of 
atrocities were held accountable at a minimum.'' That's the end 
of her quote.
    Unfortunately, the resolution was blocked by China and 
Syrian leader Bashar al-Assad's ally, Russia. All of the 
panelists have helped bring forward and bring to light the 
atrocities inside Syria. We are grateful for your work. It also 
took many years for Charles Taylor to be brought to justice, 
but ultimately justice was served.
    Do you believe that the U.S. should continue to insist that 
the U.N. Security Council refer the case of Syrian war crimes 
to the International Criminal Court?
    Caesar. [Interpreted.] Absolutely, I believe in that. And I 
am full of hope and I believe that we will also reach justice. 
We will reach accountability for these criminals.
    But we also understand whether we do get to the 
International Criminal Court or whichever way we reach justice, 
it will be a very long road. But we are doing what our 
consciousness and our humanity obligates us to do. And we are 
even pursuing several national prosecutions in Europe.
    For example, in Germany, we were able to get the German 
government to put out an arrest warrant, for example for Jamil 
Hassan, the former head of the Air Force Intelligence Branch. 
And we hope that the United States is able to get the Security 
Council to put the Syrian case and to put the dictator Bashar 
al-Assad before the International Criminal Court in The Hague.
    Senator Udall. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator. Senator Perdue.
    Senator Perdue. I'll yield my time at this point.
    The Chairman. Thank you. Well, thank you very much, Caesar 
for being with us today. We admire your bravery. We appreciate 
your bringing to the attention of the world these things, so 
they could be described in words. There's no substitute for 
photographs.
    I have no doubt that at some point in time your 55,000 
photographs will be used and the people who did those things, 
those photographs will be put in front of them and in front of 
the people who will hopefully dispense justice to them. Thank 
you again for being here today.
    Caesar. [Interpreted.] Thank you all so much. I am 
confident that all of you will stand by us, will stand by the 
Syrian people.
    The Chairman. You can be assured of that. Thank you. With 
that we will end this part of the panel. We ask everyone to 
retain their seats for a moment while we reconfigure the room. 
Thank you.
    We will now hear from our second panel. Our first witness 
is Omar Alshogre. Omar Alshogre is a former detainee in the 
Assad regime's vast network of prisons. He spent nearly 2 years 
in detention in Syrian Intelligence Branch 215, where he 
numbered the bodies of dead torture victims that later appeared 
in the photos in the Caesar file. While detained, Omar learned 
that most of his family and village were killed.
    After Branch 215, Omar was moved to Saydnaya prison, dubbed 
the worst place on earth, where he survived for a year before 
finally being released. Omar eventually traveled to Europe and 
arrived in Sweden, where he has resided since. Today he is a 
member of the Caesar Team and the Syrian Emergency Task Force. 
With that, we will hear from him, and then we will move to our 
second witness.

STATEMENT OF OMAR ALSHOGRE, DIRECTOR OF DETAINEE ISSUES, SYRIAN 
                      EMERGENCY TASK FORCE

    Mr. Alshogre. Thank you, members of this committee, for 
inviting me to testify.
    As I am talking to you right now, people are scared in 
Idlib Province. Children are dying. They face constant 
bombardment. Schools, hospitals, and bakeries have all been 
targeted. All day every day, civilians live in fear of the 
regime, Russia, and Iran. During the humanitarian disaster in 
Idlib, we cannot forget why so many people have come to this 
desperate place to evade the very same detention I faced for 
over 3 years. When the regime advance and takes another 
village, those cities become like cities of ghosts. Innocent 
men, women, and children either die, flee, or end up in 
detention centers like me. What I am going to tell you in the 
coming few minutes is a story, true story.
    My father left me on the street of my hometown, Baniyas, on 
March 18th of 2011. Before he departed, he whispered a few 
words in my ears. Guess what it was? I had participated in the 
demonstrations, and for only for asking for freedom, I was 
arrested, and I was tortured. I was confused. I did not 
understand why they arrested me. I was 15 years old. I did not 
really understand the situation and what was going on, and I 
was as like every other kid on this planet. They think police 
is like somebody who protects you. That is what I thought about 
the police even in Syria, especially that my father was an 
officer. He retired in 2009, but still for me it was that my 
dad was an officer. He protected me and that is what the police 
should do.
    In prison, they tortured me, and my torturer forced me to 
say that I have killed, I had weapons, but that did not come 
that easy. He had to pull out my fingernails out of my fingers 
first before I give this false confession. I was only 15 years 
old when the guard open scarred on my body. I was only 15 years 
when my life experience became nearly too much to bear. I was 
only 15 years old when I wished to die.
    I remember one good thing from prison. One month something 
was different. I didn't know what is going on, but we got less 
torture, we got more food, and the guards were not screaming 
anymore. They were not burning our bodies with their 
cigarettes. They were giving us one full potato instead of half 
one. When I got out of prison, I tried to match what happened 
on this day and this month when I was in prison when I got more 
food than usual, what happened outside. It was when Caesar's 
pictures been released. Everybody around the world was talking 
about prisoners and what is going on in Syria's prison.
    That is why we have to speak. That is why we have to do 
anything, even just write on Twitter or talk or have testimony. 
This testimony give hope for a lot of people.
    I just published yesterday on social media that I am going 
to be testifying together with Caesar and Raed, and people were 
too kind, those who say it is amazing, something may happen, 
they may help us doing something. And other people who say that 
happened before, they know more than what you know about your 
own experience, they are not going to change anything. Let us 
show them the opposite.
    I remember one Tuesday, a beautiful Tuesday, when I was in 
Saydnaya Prison. It was the night of June 2015. I already been 
in prison 3 years and experienced all kind of torture, and I 
was starving. But the guard opened the door and he said, 
``Omar.'' The only time they says your name in Saydnaya prison 
is when they are going to kill you. They took me from a room. 
They killed somebody who was next to me, asked me to pull him 
outside of the room. I pulled his body out. I looked at his 
face. It was my best friend at that time.
    The guards took me, isolated me in room for 48 hours, and 
every single hour, day and night, when the watch of the guard, 
he comes and ask me a question. How do you want me to kill you? 
Be creative. I was forced to give 68 answers, answer for 48 
because not all of them was nice or good enough for him to 
enjoy killing me. After 48 hours, they pulled me out of the 
room, took me in the car, blindfolded my eyes, my hands tied 
behind me, and they put me in the street facing the ground. The 
officer is walking slowly behind me, and I am scared because I 
do not want to see how they are going to kill me. I did not 
know. He walks, talks about my death, then he just got silent. 
And ``load,'' ``aim.'' It did not go that quickly. It took a 
billion years for me between ``load'' and ``aim.'' It takes a 
long time. Then he said, ``shoot.'' Poof.
    And I died for the first time. I never died before. I did 
not know how it feels or what is going to happen. Have any of 
you died before, can explain how it feels to die? I did not--so 
I was just thinking, wow, finally the afterlife. I woke up 
still alive, did not know what happened. The guy they killed in 
the room when they come to take me was a guy who was supposed 
to be released. They killed him. They put my name on his face, 
and they took me outside of prison because it was my day to be 
executed. Took me outside of prison with his name because my 
mother paid $20,000 to an officer to get me out of prison. She 
did not know how, but my mom want me to be alive after they 
killed my father and my siblings in an attack on our village in 
Syria.
    When the regime takes an area, people will die, flee, or 
get arrested. That is what happened to them. What I mentioned 
just was the mental torture you experience by the Syrian 
regime. I did not talk about the physical because it is not 
going to help you understand because the physical torture, you 
do not understand it if you do not experience it.
    So what is waiting people in Idlib is the same thing if we 
do not help them. The people of Syria are suffering. They may 
be used to pain, but it is not pain who breaks people. It is 
fear. They fear not being able to feed their children. They 
fear being arrested, captured, and tortured to death. It is not 
the torture that was the worst. It is waiting for torture that 
was the worst.
    Sometimes it seems impossible to help these people, but as 
Nelson Mandela said, ``it always seems impossible until it is 
done.'' We have to do something. And I want to conclude by 
quoting the words of your own President when he said, ``Assad 
is an animal.'' I hope you all agree with him. I do. Thank you.
    [The prepared statement of Mr. Alshogre follows:]

                  Prepared Statement of Omar Alshogre

    Thank you members of this committee for inviting me to testify.
    As you read my testimony now, in Idlib civilians face a constant 
onslaught from the regime and its foreign backers, Russia and Iran. 
They face constant bombardment. Schools, hospitals, and bakeries have 
all been targeted. In the midst of this massive humanitarian disaster, 
one cannot forget that the reason so many have come to this desperate 
place is to evade the very same detention I faced for over 3 years. 
When the regime advances and seizes another village, people either die, 
flee, or end up in detention centers like me and those cities became 
cities of ghosts. And here's a brief taste of what happened in 
detention centers:
    The Syrian regime first arrested me on April 12th, 2011 at the 
center of my hometown, the village of al-Bayda near Baniyas city. when 
I was 15 years old. They arrested me for only participating in non-
violent demonstrations.
    There I got my first taste of what was to come--I spent two nights 
in jail and experienced torture for the first time. I for the first 
time braced as I endured electric shocks. I for the first time knew how 
it felt for my nails to be pulled from my fingers.
    The regime released me thanks to the marches of women in Baniyas 
and al-Bayda. These women took to the streets to demand the release of 
their family and community members. I returned to my hometown, but 
faced arrest after arrest for no reason but for going to school or 
belonging to the Alshogre family.
    On November 16th, 2012, the regime arrested me for the final time. 
I spent 3 years in many different prisons in different Syrian cities, 
but mostly in Damascus. I was only 17 years old.
    Over a period of almost 3 years, the regime tortured me alongside 
my three cousins--Bashir (born in 1990), Rashad (1992), and Nour 
(1995)--who had been arrested with me. Guards pulled out our 
fingernails--sparing only Nour of this burden given that she was a 
girl. They threw us naked into small cells stained with the blood of 
former detainees who had suffered their torture as well.
    At the time of the last arrest, we were taken first to the military 
intelligence branch in Baniyas. We spent around 4 hours there before 
being transferred to a military intelligence branch in Tartus where we 
spent the following 20 days. Next, we were transferred to a police 
station in the same city, Tartus, for 7 days and then we were 
transferred to al-Balouna police station in Homs. Again we were 
transferred, this time to al-Qaboun in Damascus, then to an unknown 
place near al-Qaboun, then to Branch 291 where we spent the last hours 
before being transferred to Branch 215 on December 13, 2012. I spent 
around 1 year and 8 months in Branch 291 before being sent to Branch 
248 for a few hours, then again to al-Qaboun, then finally to Saydnaya 
prison on August 15, 2014. I was then sent to al-Qaboun for court on 
the 8th of September 2014 and to the court at the 9th before being sent 
back to Saydnaya on the 10th of September 2014. I was then smuggled out 
of the country on June 11, 2015.
               in the tartus military intelligence branch
    I was first isolated in a small cell with my hands tied and my eyes 
blindfolded. In my first 7 days there, guards took me from my cell to 
the corridor where most of the torture happens. On those days, I spent 
16 hours standing on my feet being tortured on and off physically. But 
the mental torture was constant. They put me in a German electric chair 
or in a car tire. When I wasn't physically tortured, the sound of my 
cousins screaming in pain instantly soured any relief I felt. I can 
still hear the screams of my cousin, Bashir, when the guards dug into 
his back with a screwdriver. My other cousin, Rashad, lost most of his 
hair on his body, which the guards took amusement in burning. I could 
hear him crying and screaming of the pain while the guards laughed 
loudly. Rashad was the first of us to be hung up to the ceiling by 
shackles on his wrist. I was next.
    In the first 2 days, the guards didn't ask questions. They only 
tortured. Later, however, they started asking me questions like ``how 
many officers have you killed?'' I thought the guards were kidding 
because I knew I had killed no one. I answered their queries with quiet 
laughter. For this they beat my face and subjected me to electric 
shocks. They tortured me for 6 days. They strung me up and hung me on 
the ceiling. They again put me in a car tire and pulled my nails. They 
whipped me with cables and sticks. When I could no longer bear it, I 
told them what they wanted to hear: ``Yes, I killed officers.''
    For the guards, the specifics of said guards--and even whether they 
ever lived or died--did not matter. They expected me to admit I had 
killed officers, and that was all that mattered. They wanted me to 
write a confession to give a legalistic facade to their dungeon of 
horrors. On the 6th day, the guards threatened that they would rape my 
cousin Nour before my very eyes if I did not confess to the murder of 
ten officers and possession of a weapon. They coerced me to state that 
I had worked as a spy for the United States and Israel. I didn't speak 
any word of English then and didn't even know what a terrorist was at 
the time.
    On the 10th day, Bashir and I were taken to our village to the spot 
where, under torture, I had said I buried my non-existent weapons. The 
soldiers dug a hole, threw me in it, and buried me alive. For some 
reason, right as I was about to suffocate, they pulled me out of the 
grave. We returned back to Tartus branch--where the most extreme 
varieties of torture and horror were commonplace. The guards again 
asked the same questions, but I didn't remember what I admitted to 
before. They tortured me more. They threatened they would arrest my mom 
and sisters if I did not say I committed crimes.
    Bashir's body was scarred. Rashad's ribs broke before we left the 
Tartus Military Intelligence Branch. My bones were broken as well. 
Blistering wounds freckled my skin where the guards amused themselves 
by putting out their cigarettes.
                        in tartus police station
    The guards forced my cousins and me to clean the toilets while 
enduring torture. Back in the cells, during our ``sleep time,'' 
arrested government soldiers tortured us. In reality, there never was a 
break. Our meager food was always stolen by these imprisoned soldiers. 
Our scars got their attention and their torture deepened our wounds. 
The officers told the imprisoned soldiers there that my cousins and I 
had previously carried weapons and killed officers so they tortured us 
and we could not sleep in peace.
                              in al-qaboun
    The guard hit me on my face until one of my teeth broke. My cousin, 
Nour, was still with us but isolated in a different, all-female room. 
The guards fed us either potatoes or bread and even sometimes eggs. But 
we could not eat the food because it was mixed with blood and hair. The 
guards all seemed to enjoy torturing people. They forced us naked and 
transmitted electric shocks to our genitalia. We tried to tell them 
that we are innocent. But, to the guards, innocence did not matter.
                             in branch 291
    We spent around 6 hours continually tortured without any 
questioning. Later, we were transferred to Branch 215, known as ``the 
branch of slow death.''
                             in branch 215
    We were put in a room under the ground with hundred of people. 
These people looked worse than death itself: broken arms and legs, 
decaying and vanishing teeth, blue bruises peaking through the few 
spots not covered in blood. Maggots ate at their flesh and the blood 
covered their skin. The room was so packed that there was not enough 
space to sit. We stood until we got dizzy and then we would fall over, 
onto people who then would hit us because we had fallen on their 
wounds. We endured 4 days of standing and falling then standing again 
until the guard took us to the first floor where we were divided to 
three different groups for scheduled torture. I faced the wall waiting 
my turn to be hit while a guards tortured a woman in the same room. I 
heard the voice of two kids with us in the room--her two children. By 
his or her cry, I could tell the youngest of them wasn't much more than 
an infant. The guards tortured and raped her. They forced her to say 
that she had killed officers and that her husband had too. I remember 
the sound when her younger child was thrown hard on the ground. Like a 
child's delayed reaction to a fall, it took some seconds before the 
child could cry. Later, this woman's husband, who was held in the same 
cell as me, told me that the blow had killed his child. Both he and his 
wife were forced to say that they were terrorists.
    My turn came. They asked me to confess that my cousin Nour made 
bombs. I knew her as a strong student in high school--never as a bomb-
maker. Again, the truth didn't matter to the officers. My cousins and I 
were thrown back to our room after hours of torture. Since none of us 
could stand and our knees had been smashed in torture, we lied over 
other peoples bodies. We were lucky that some of those people were dead 
so they didn't protest.
    On March 15, 2013, Rashad died from the pain of his broken ribs and 
starvation. Rashad was a hero. He used to donate some of his food to 
sick prisoners. He was beloved for his kindness and respected by 
everybody around him. He was carried to the ``Azel room,''--a sort of 
isolation room or mortuary where the guards collected dead bodies 
before taking them upstairs to a truck and driving them away. When 
Rashad's body arrived in the dead room, a guy who looked to be in 
better shape than all other prisoners, gave me a pen and asked me to 
write a number on Rashad's forehead. This later became my job. In 
Branch 215, I numbered the dead bodies of my fellow inmates and, with 
help of other prisoners, carried them into the truck on the ground 
floor.
    In 2013, the regime arrested another of my cousins and put him in 
the same jail as Bashir and myself. His name was Hassan. He told me 
that my family had been killed--cut down and burned--alongside with 
tens of my other relatives in a massacre perpetrated by regime forces 
in my village al-Bayda on May 2, 2013.
    Until March 2014, Bashir couldn't think about anything else than 
what he would do if he got out of prison. He wondered how he would 
respond when his mother asked him ``where is your younger brother?'' 
Those thoughts--alongside all the torture, sickness, and starvation--
robbed him of hope. He died on March 3, 2014. I carried him in my arms 
back from the toilet. Bashir was my closest friend in prison. He gave 
me a reason to smile and to continue to be alive. His death was the 
first to break me--and the first to make me unbreakable.
    After Rashad and Bashir, I witnessed the guards taking Hassan to 
his death. At this time and after that I witnessed the death of 
thousands of prisoners of all different nationalities and walks of 
life. All the while, I numbered their bodies. I even numbered my 
cousins and my best friend. I could see my face on every dead body I 
numbered. During my time in Branch 215, I got sick repeatedly. I was 
afforded no medicine or medical attention whatsoever. The only thing 
that protected us was the angel of death. During my time there, I met 
two prisoners who had been arrested since 2008. They told me they were 
until recently kept on the 6th floor of Branch 215. There, they had met 
international prisoners. During a period of time, the guards would 
search for prisoners who spoke English. Those who could speak English 
were taken to translate between the guards and the non-Arabic speaking 
prisoners. It was these same people who inevitably numbered the day 
after they were taken to translate. Their selection and deaths are the 
strongest evidence I have for the presence of the non-Arabic speaking 
prisoners in the regime's political prisons.
    I had been the youngest detainee in Branch 215 until a 12-year old 
child joined our cell. I remember him crying and asking for his mom. I 
remember him and the other children scared and ashamed after being 
raped by the guards. I remember the guards laughing when they spoke of 
raping them again. In prison, we were Muslims, Christians, Atheists--
all sharing the same kind of torture. All of us were forced to fight to 
eat, fight to drink, and fight to survive for just one more day.
                              in the court
    The guards took me to a room and forced my fingerprints on some 
papers I hadn't read. They had blindfolded me. I could hear screams of 
pain even in the court.. I was taken to stand in front of a judge and I 
felt some hope for the first time in a while. Then he asked me ``how 
many people have you killed?'' I answered ``none.'' He told me to ``get 
out.'' That was my one day in court.
                           in saydnaya prison
    The level of torture in Saydnaya ``the slaughter house,'' was 
incomparable even with what I had experienced earlier. Saydnaya was 
worse than pain, more horrible than anything previous to it, worse than 
death. Someone near to where I was in Saydnaya told the guards he was 
sick. They called the prison doctor who told him they needed no sick 
people in Saydnaya and executed him. They ordered me to pull him to the 
dead room. There, I saw people who seems like they have died of many 
different reasons--including torture, starvation, and the removal of 
organs
    Between August 2015 and June 2015, a lot of people died. A lot of 
children became orphans and a lot of women became widows. The guards 
gave some people knives and asked them to choose between their life and 
that of their kin. The guards could starve us in days then give food to 
five of a hundred people. They would instigate a fight between the 
starving mass and those recently given some small amount of food. The 
guards would put a pile of food in the corner of our room and force us 
to look at it for days without being allowed to eat it. The shower days 
in the winter saw the most deaths.
    On June 9th, 2015, I was taken to an empty room where I spent 48 
hours being asked by the guards at every single hour the same question 
over and over ``how would you like me to kill you? Be creative.'' They 
forced me to give different creative answers of how they could enjoy 
killing me. Behind the scenes, a huge amount of money was paid to an 
officer and judge to help smuggling me outside Saydnaya before my 
execution. They killed someone else who was set for release and saved 
me in his place. After a mock execution, they carried me off. I didn't 
know what was going on. I just woke up in the middle of nowhere covered 
in blood and unable to open my eyes. The sun shone over my head for the 
first time after almost 3 years. I managed to get myself to Damascus 
and get my way out of the country. The regime stopped me at a 
checkpoint and again brought me to the brink of execution near Idlib. 
However, my tuberculosis-borne coughs of blood scared the soldiers and 
in a panic they released me into rebel-held areas. From there I made it 
to Turkey, where I found out that my mom and some of my siblings had 
survived the 2013 massacre and escaped to Turkey after the death of my 
father and brothers. My mom had paid the money to smuggle me out of 
prison. She didn't know the money she'd paid was the cost to save my 
life.
                    on my way to europe/legal cases
    For seeking treatment, I was forced to risk my life again by 
sitting on a rubber boat with tens of people in a dark night to go to 
Greece in the end of 2015. Greece didn't provide me any healthcare so I 
continued to travel through North Macedonia, Serbia, Croatia, Slovenia, 
Austria, Germany, and Denmark. Finally, on December 1st, 2015, I 
entered Sweden--the country that treated me the best and gave me what 
was necessary to survive and even thrive. I started to learn Swedish 
early in the hospital during treatment. Over the past 5 years, I've 
learned to speak it fluently. Later, I learned Norwegian before 
starting to focus on learning English in 2018.
    I believe in justice and accountability for those who committed 
such heinous acts against myself and so many others. For this reason, I 
have testified to the Swedish police and worked alongside other 
survivors in legal cases in Germany, France, Sweden, Spain and Norway 
for war crimes committed by the regime against the Syrian civilians. I 
have felt immense concern for my safety since the regime actors 
contacted me threatening that I should remain silent or fear for my 
life. I refuse to be silent. Bringing Syria's war criminals to justice 
needs the support of the United States to protect innocent people and 
right past wrongs. I look to the United States to be the voice for the 
voiceless people, not only in Syria, but around the world.

    The Chairman. It is powerful testimony, Mr. Alshogre. Thank 
you. We will have some questions for you in a moment. We are 
going to turn now to our second witness, Mr. Raed Al Saleh. Mr. 
Al Saleh is the head of the Syrian Civil Defence, more commonly 
known as the White Helmets. He manages this network of over 
2,800 volunteers who have saved over 120,000 lives in Syria. He 
is originally from Idlib, and he is a father of two. Mr. Al 
Saleh, the floor is yours.

  STATEMENT OF RAED AL SALEH, HEAD OF THE SYRIA CIVIL DEFENCE 
                        [WHITE HELMETS]

    Mr. Al Saleh. [Interpreted.] First of all, thank you for 
giving us this opportunity to talk about what is happening in 
Idlib. What was said by both Caesar and Omar gives a very 
harrowing glimpse of the horrors that are faced by the Syrian 
people, but I will speak about a different perspective.
    My name is Raed Al Saleh: I am the head of the Syria Civil 
Defence, popularly known as the White Helmets, this 
organization of 2,500 men and 300 women, who have dedicated 
their lives to saving others. When the bombs rained down, we 
rushed to dig lives from under the rubble. Since our formation 
in 2013, we have saved more than 120,000 lives in Syria. 282 
volunteers have been killed in the line of duty, deliberately 
targeted by the Syrian regime and Russia. We rescue people 
regardless of their ethnicity, religion, gender, or politics. 
We have rescued our own family members, complete strangers, and 
even Assad regime soldiers.
    Our motto and inspiration comes from the universal teaching 
found in the Quran that reads, ``Whoever saves one life, it is 
as if they have saved all of humanity.'' Yet for all the lives 
we have saved, death is beating us. For every Syrian that we 
have saved, there are five that we have lost. If only we could 
stop the bombs, we could save almost every single one.
    I am here today to convey the voices of the millions of 
civilians in Idlib who wake up every day fearing death. Idlib, 
once an idyllic, rural province known for its olives and 
cherries has been turned into hell on earth. Since Russia's 
intervention in 2015, the number of internally-displaced people 
has doubled to 8 million. The relentless aerial bombardment and 
use of siege to retake areas like Aleppo and Eastern Ghouta has 
forced millions to evacuate to Idlib. Now there is not another 
Idlib, nowhere else left to flee to, and so nearly 4 million 
civilians are trapped. The area is roughly the size of the 
State of Rhode Island. Its pre-war population of 300,000 has 
increased by more than tenfold.
    Since the beginning of the Idlib offensive, the Assad 
regime, backed by Russian air power and Iranian proxy militias, 
has launched a systematic campaign targeting all civilian 
infrastructure. Water points, hospitals, White Helmet centers, 
food markets, schools, and bakeries have all been targeted and 
bombed. Nearly everything that can help civilians survive has 
been destroyed, and the vast majority of people are struggling 
to access basic shelter, food, and medicine.
    I was in Idlib just weeks ago. There are no words to 
describe the apocalyptic horrors I witnessed there. Numbers are 
no longer useful as the horror cannot be quantified, so I will 
tell you a story. I saw a father in Idlib standing on the side 
of the road with a sign reading, ``I will sell my kidney for a 
tent.'' Can you imagine being so desperate to just provide 
shelter for your family?
    I did not come here to talk about humanitarian needs. 
Senators, I want to be very clear in this hallowed institution. 
What is happening in Syria is not an earthquake or hurricane 
that can be solved with humanitarian aid funding. No amount of 
money can stop a single barrel bomb falling over a child's bed. 
No amount of money can return a single displaced family to 
their home. We deeply appreciate the U.S. government's support 
to the White Helmets and urge your support in making sure the 
Syrian people's needs are met, but more funding to us will not 
solve the problem either.
    The ambulances we purchase with your funding are being 
pursued by Russian drones and deliberately bombed. Russia has 
destroyed millions of dollars' worth of our U.S.-funded 
equipment. When you give us more money, what you are telling us 
is that you will not stop the atrocities, and that, instead, we 
must purchase more ambulances to transport more injured 
civilians, order new cranes to lift collapsed concrete crushing 
entire families, and buy more protective clothing to deal with 
chemical attacks. Raising funds to alleviate the suffering does 
not work any better than giving painkillers to a cancer 
patient. What is needed is the political will to act to protect 
civilians.
    The overwhelming majority of the suffering results from one 
cause: the absolute impunity with which the Syrian regime and 
Russia bomb civilians from the sky. Yes, we have other evils, 
too: the thousands of Iranian proxy forces, known for their 
sectarian brutality, and other extremist groups who have 
similarly terrorized civilians. But it is the unimpeded aerial 
bombardment which is the primary cause of death, destruction, 
and displacement of civilians. The aerial bombardment is the 
primary cause of the refugee exodus to Europe, which has 
empowered far-right parties. The aerial bombardment and the 
West's unwillingness to stop it is the primary recruitment tool 
for ISIS and terrorist groups.
    So today I ask you to use your power to end the root cause 
of all the suffering by taking real action to clear the skies 
above Syria. Since 2011, we have been told all the reasons why 
intervention to protect civilians is impossible, but who has 
considered the consequences of not acting?
    The consequences of the world's inaction cannot be confined 
to Syria's borders. Meeting the most basic humanitarian needs 
will cost billions a month. Millions more refugees will flee 
Syria to Europe's safer shores. No border wall can contain 
them. An entire generation of children will be left uneducated. 
Extremist groups will foment in the chaos, necessitating future 
global coalitions and trillions of dollars to defeat new 
threats. Does this sound more possible? Does this cost sound 
more reasonable than acting to stop the atrocities being 
committed now? Turkey's intervention last month shattered the 
myth that the use of force to stop hostilities might cause 
further escalation. In fact, the opposite happened. After 
Turkey's brief military intervention last week, there was a 
complete stop in aerial attacks, but Turkey cannot do this 
alone. It needs your support and leadership.
    The enforcement of a national ceasefire by all means 
necessary will create the conditions for real, internationally-
backed peace talks, including accountability for all 
perpetrators of mass atrocities and war crimes. For I still 
believe in the values that the Syrian revolution called for in 
March 2011, the values of democracy practiced in this building 
every day, and which can be practiced in Syria, too. With 
support of people around the world, we Syrians can rebuild our 
country into a free, peaceful democratic Syria that operates 
beyond the evils of the regime and extremists.
    I do not wish to sit here in 2025 detailing the suffering 
of yet another unprecedented humanitarian catastrophe in Syria, 
to speak of several hundred thousand more lives lost, the 
millions still without a home, and paying tribute to hundreds 
more White Helmets who will have been killed saving lives. As 
we enter the 10th year of war, the world has run out of words. 
Now is the time for action. Thank you.
    [The prepared statement of Mr. Al Saleh follows:]

                  Prepared Statement of Raed Al Saleh

    My name is Raed al-Saleh. I am the head of the Syria Civil 
Defence--popularly known as the White Helmets--an organization of 2,500 
men and 300 women who have dedicated their lives to saving others. When 
the bombs rain down, we rush to dig life from under the rubble. Since 
our formation in 2013, we have saved more than 120,000 lives in Syria. 
282 volunteers have been killed in the line of duty, deliberately 
targeted by the Syrian regime and Russia.
    We rescue people regardless of their ethnicity, religion, gender, 
or politics. We have rescued our own family members, complete 
strangers, and Assad regime soldiers. Our motto and inspiration comes 
from the universal teaching found in the Qu'ran, that reads: ``Whoever 
saves one life, it is as if they have saved all of humanity.''
    Yet for all the lives we have saved, death is beating us. For every 
Syrian that we've saved, there are five that we've lost. If only we 
could stop the bombs, we could save almost every single one.
    I am here today to represent the millions of civilians in Idlib who 
wake up everyday fearing death.
    Idlib, once an idyllic rural province known for its olives and 
cherries has been turned into hell on earth.
    Since Russia's intervention in 2015, the number of internally 
displaced people has doubled to 8 million; the relentless aerial 
bombardment and use of siege to retake areas like Aleppo and Eastern 
Ghouta has forced millions to ``evacuate'' to Idlib. Now there isn't 
another Idlib, nowhere else left to flee to and so nearly 4 million 
civilians are trapped. The area is roughly the size of Rhode Island--
its pre-war population of 300,000 has increased by more than tenfold.
    Since the beginning of the Idlib offensive the Syrian regime, 
backed by Russian airpower and Iranian proxy militias, has launched a 
systematic campaign targeting all civilian infrastructure: water 
points, hospitals, White Helmets centers, food markets, schools and 
bakeries. Nearly everything that can help civilians survive has been 
destroyed and the vast majority of people are struggling to access 
basic shelter, food and medicine.
    I was in Idlib three weeks ago. There are no words to describe the 
apocalyptic horrors I witnessed there. Numbers are no longer useful as 
the horror cannot be quantified so I will tell you two stories.
    The first is of a father standing on the side of the road, with a 
sign reading: `Will sell my kidney for a tent'. Can you imagine being 
so desperate to just provide shelter for your family?
    The other is when I visited the thousands of families living under 
olive groves with no protection or facilities--many don't even have 
tents. I asked a grandmother what she needed most. She didn't say what 
you might expect: food, water, a blanket. She just asked for a toilet 
so she might have some dignity. How is it that the great Syrian people, 
the birthplace of civilization, the creators of the first alphabet from 
the fifteenth century BCE are now dreaming of a toilet? Abandonment has 
made our dreams very small.
    I did not come here to talk about humanitarian needs. I want to be 
very clear in this hallowed institution: what is happening in Syria is 
not an earthquake or hurricane that can be solved with humanitarian aid 
funding. No amount of money can stop a single barrel bomb falling over 
a child's bed. No amount of money can return a single displaced family 
to their home.
    We deeply appreciate the U.S. Government's support to the White 
Helmets, and urge your support in making sure our needs are met, but 
more funding to us will not solve the problem either. The ambulances we 
purchase with your funding are being pursued by Russian drones, and 
deliberately bombed. Russia has destroyed millions of dollars worth of 
our U.S.-funded equipment. When you give us more money, what you are 
telling us is that you will not stop the atrocities, and that instead 
we must purchase more ambulances to transport more injured civilians, 
order new cranes to lift collapsed concrete crushing entire families, 
and buy more protective clothing to deal with chemical attacks.
    Raising funds to alleviate the suffering does not work any better 
than giving painkillers to a cancer patient. How much longer will the 
international community pursue this strategy before concluding it 
doesn't work?
    What is needed is the political will to act to protect civilians.
    The overwhelming majority of the suffering results from one cause: 
the absolute impunity with which the Syrian regime and Russia bomb 
civilians from the sky. Yes, we have other evils too: the thousands of 
Iranian proxy forces, known for their sectarian brutality, and ISIS and 
Al-Qaeda who have similarly terrorized civilians. But it is the 
unimpeded aerial bombardment which is the primary cause of death, 
destruction, and displacement of civilians. The aerial bombardment is 
the primary cause of the refugee exodus to Europe which has empowered 
far right parties. The aerial bombardment, and the West's unwillingness 
to stop it, is the primary recruitment tool for ISIS and Al-Qaeda. So 
today I ask you to use your power to end the root cause of all this 
suffering by taking real action to clear the skies above Syria.
    Since 2011, we have been told all the reasons why intervention to 
protect civilians is impossible. But who has considered the possibility 
of not acting? The costs of the world's inaction cannot be confined to 
Syria's borders. Meeting the most basic humanitarian needs will cost 
billions a month. Millions more refugees will flee Syria to Europe's 
safer shores; no border wall can contain them. An entire generation of 
children will be left uneducated. Extremist groups will ferment in the 
chaos, necessitating future global coalitions and trillions of dollars 
to defeat them. Does this sound more possible than acting to stop the 
atrocities being committed now?
    Turkey's intervention last month shattered the myth that the use of 
force to stop hostilities might cause further escalation--in fact the 
opposite happened. After Turkey's brief military intervention last 
week, there was a complete stop in aerial attacks. But Turkey cannot do 
this alone. It needs your support.
    The enforcement of a national ceasefire--by all means necessary--
will help create the conditions for real, internationally-backed peace 
talks, including accountability for all perpetrators of mass atrocities 
and war crimes. For I still believe in the values that the Syrian 
Revolution called for in March 2011, the values of democracy practiced 
in this building every single day, and which can be practiced in Syria 
too. With support of people around the world, we Syrians can rebuild 
our country into a free, peaceful, democratic Syria that operates 
beyond the evils of the regime and extremists.
    I do not wish to sit here in 2025 detailing the suffering of yet 
another unprecedented humanitarian catastrophe in Syria, several 
hundred thousand more lives lost, the millions still without a home, 
and paying tribute to hundreds more White Helmets who have been killed 
saving lives.
    As we enter the 10th year of war, the world has run out of words. 
Now is the time for action.

    The Chairman. Thank you very much. Both of you have given 
very powerful testimony to our committee. Senator Menendez.
    Senator Menendez. Well, Mr. Chairman, I have to say that 
questions are not valuable when you hear the testimony of Mr. 
Alshogre, who is extraordinary at such a young age to have to 
recount it so many times and relive it, and Mr. Al Saleh's 
tremendous work with the White Helmets. You know, I sat here as 
the chairman of the Foreign Relations Committee a time, and we 
approved an AUMF to stop Assad when he was using chemical 
weapons. And it had a limited value because it was only pursued 
to give up those weapons that we knew at the time. I passed 
legislation to help the then-independent Syrian forces that we 
thought could ultimately change the tide in their own country.
    At this point, I hope that your testimony and Caesar's 
testimony before you pricks the conscience of this nation. 
There are some things that we can do. We can immediately seek 
implementation of the Caesar Act, and begin to create a 
consequence for those who are committing these horrific acts. 
What more testimony do we need? What more visualization do we 
need? We can do something like the Administration changing its 
decision to zero out the resettlement of Syrian refugees to the 
United States, refugees who are the most heavily vetted of any 
group that may come to the United States.
    Tomorrow the Trump administration could start a Syrian 
refugee resettlement as a message to the world that we need to 
take care of those who are fleeing. And tomorrow we could start 
an effort of a surge in international efforts to hold those 
accountable and to seek a true ceasefire and an implementation 
of it. These are things that take political will. It is a will 
that has not been forthcoming from our country, and that is not 
unique to this Administration either.
    So I hope that this testimony that is riveting--I could ask 
you about assistance from humanitarian organizations. I could 
ask you about what else we could do, but you have said it so 
aptly. Giving me more money to buy more ambulances that will 
get bombed by the Russians is not going to solve the horrific 
violence. So for myself, I will seek to find ways in which we 
can prick the conscience of our colleagues, and of this 
Administration, and of others who can ultimately cast a garish 
light upon these horrific acts of violence, and to seek a 
movement that begins to change the course of events, because 
that is what we ultimately seek to serve for: to change the 
course of the events for the better, both here and abroad. And 
I appreciate your testimony in that regard. I have no questions 
for you.
    The Chairman. Thank you, Senator Menendez. Senator Perdue.
    Senator Perdue. Well, to say that, sitting in this moment 
of luxury and safety here in the United States Capitol, we are 
chagrined and horrified about what you have told us today would 
not do you honor. I do have a question. I want to allow you to 
speak more about this. I agree with Senator Menendez. This is 
not about American politics. This is about human life in Syria. 
What you went through, Omar, as a 15-year-old shocks me, and I 
want to thank you for being here and having the guts to be 
here, and, Mr. Al Saleh, thank you for the White Helmets and 
your leadership. But we have to hold these people accountable, 
and we have to stop the killing.
    You mentioned clearing the skies. There were some of us who 
supported a no-fly zone in Syria that would have saved 
thousands of lives heretofore. The Caesar Syria Civilian 
Protection Act became law in December. I agree with Senator 
Menendez. We need to implement that. I want to ask both of you, 
Mr. Al Saleh and Mr. Alshogre, what can we do to help hold 
these people accountable? Assad. Russia. UAE is now recognizing 
them. These are things the U.S. can influence on. We are not 
walking away. None of us want to walk away from Syria and our 
responsibility in that part of the world.
    The U.N. in 2016 created--the General Assembly--the 
International Impartial and Independent Mechanism. Tell us your 
personal opinions about what we need to do now to help make 
this end and help hold these people accountable. Omar?
    Mr. Alshogre. Thank you, Senator. I think before we think 
about holding al-Assad or Russia accountable, we have to stop 
them because it is like still going on in Syria. People are 
dying every day, and like, when I get in contact with any 
person who has been newly released, he tells me, like, torture 
is, like, unlimited. Starvation is horrible. So we have to stop 
them, and if not, the U.S., the leader of the free world speak 
up for these people or, like, take an action by----
    I know the U.S. maybe does not have a great relation with 
Turkey. Europe does not have it. But if we are going to support 
Turkey, we support Turkey for the Syrian people, not for Turkey 
itself. And right now, it feels like the only scenario the U.S. 
can do because there is no intention to sending the troops, and 
I understand that. Maybe it is not a good idea at all, but the 
U.S. has their own allies in Syria. They can support them. You 
have the NATO allies. You can support them and provide them 
internal assistance and stopping the killing.
    And Turkey, like a lot of Syrians talking about how much 
they like what Turkey is doing, even if Turkey is, like, coming 
inside their country, but it is the only way to survive, the 
only way to be protected. These people want to be protected in 
any way on earth. It does not matter who protect us, just 
protect us. Israel, the U.S., just protect us. Holding al-Assad 
accountable, there is no way as the commander of the Syrian 
war. I even have a picture of my father being killed by the 
soldiers who made that. I have my brothers' pictures.
    And to just make it clear, my father looks like any other 
human being on earth. He is normal dad. I loved him. He loved 
me and my brothers as well. So there is evidence of them being 
killed, and now we have five legal cases, prosecutions against 
the war crimes in Syria, and it is in Germany, and Spain, and 
France, and Norway, and Sweden. We have to support these cases, 
and we have to start one here in the United States because, 
like, the United States has more power than Europe in doing any 
prosecutions. And Germany just 2 days ago started their 
prosecutions, brought two guys who have been arrested just to 
court. They are going to start now.
    And the U.S. is still kind of not doing enough when it 
comes to prosecutions. I do not think Germany has more ability 
to do that than the U.S., but the U.S. is waiting for 
something. I do not know what. I am not an expert. I do not 
know what is going on, but still, the U.S. can do more than 
what it is doing right now. And really bad hand.
    [Laughter.]
    Mr. Alshogre. I do not know how to say. Yeah, I mean, oh, 
one--I know I have 17 seconds. I will try to make it possible. 
But when I was in Branch 215, one of the branches almost 2 
years there, the guards used every day to come and in a period 
of time, to come every day and ask for somebody who speaks 
English. They take this person to the sixth floor, translate 
some people who only speak English, and there were prisoners 
used to translate. I was working in the isolation room, that 
room, dead bodies. If you look straight behind you, this girl, 
there is a paper and number in his hand. I was writing those 
numbers. I was, like, tasked from the guard to write these 
numbers before Caesar took the pictures.
    They were using people to go up to translate. This person 
who translated only once, and killed, goes to the isolation 
room. I saw this person, like, go into the sixth room and die, 
and second person die. Then I understood there are 
international prisoners, which include Americans, and so 
Syria's translator is dying for the Americans. Americans should 
do something to protect these people there.
    And there are Americans in Syria's prisons. If somebody 
does not care about what is going on for Syrians, there are 
Americans. And Layla Schweikani just died, and we do not know 
what happened to Kamalmaz, an American citizen. The U.S. has to 
do anything in their power--I started to speak like an 
American, but, like, I feel it is amazing we can host this 
testimony, but it is time for action, too. Thank you.
    The Chairman. Go ahead.
    Mr. Al Saleh. [Interpreted.] Since the Russians intervened 
in 2015, they have used the veto 24 times in the Security 
Council. The first thing that the United States and the 
international community needs to do is to take all of the 
conversations for the future of Syria and for saving the Syrian 
people out of the Security Council because in the Security 
Council, everything gets vetoed by the Russians. Even the issue 
of delivering assistance to people who are in desperate need 
across the borders has been vetoed last month by the Russian 
government.
    Russia vetoes anything that just merely condemns the war 
crimes that are being committed by the Assad regime or by 
Russia, and this was seen in 2017. The Russians used seven 
vetoes just stop the work of the Joint Investigative Mechanism, 
which confirmed the use of chemical weapons by the Assad regime 
in Syria. And in 90 days, there will be another vote at the 
Security Council just for the delivery of assistance, for the 
delivery of a bite of food to eat, assistance which is being 
delivered not by Russia. It is assistance that is being 
delivered because of the United States and Europe's support to 
the U.N. But this assistance will be debated in the Security 
Council and can be compromised by the Russian veto.
    And allow me to say that if Russia uses the veto and stops 
the delivery of humanitarian assistance across the border, then 
all of the U.S. funding to the U.N. will be in direct support 
of the criminal Assad regime and the Iranian militias.
    Senator Perdue. Thank you, Mr. Chairman. Thank you.
    The Chairman. Thank you, Senator Perdue. Senator Shaheen.
    Senator Shaheen. Thank you. Thank you both very much for 
being here. I cannot add much to the eloquence of Senator 
Menendez in talking about the fact that anything we say pales 
by comparison to what the two of you have experienced and seen. 
But I do want to ask some questions because I think it helps me 
be able to better witness to people who we want to respond to 
this crisis.
    So this is probably for you, Mr. Al Saleh. Critics of the 
Turkish-Russian ceasefire in Idlib argue that the agreement 
will solidify the territorial gains that have been made by 
Assad, and yet they do nothing to address the humanitarian 
crisis or to protect the millions of refugees. So can you talk 
about what you believe will happen if--first of all, will that 
ceasefire hold? And second, what will happen to the Syrians who 
are currently in Idlib if Assad and the Russians and Iranians 
are successful?
    Mr. Al Saleh. [Interpreted.] We have been warning of the 
humanitarian crisis which will result in Idlib back since 2015 
before the Sochi Agreement, and we know that Russia never 
abides by any ceasefire that they sign in Syria. This ceasefire 
will end the same that every other ceasefire has ended in 
Syria. The ceasefires are simply a tool that is used by the 
Russians and the regime in order to reorganize the situation on 
the ground, change the deployment of forces, and to be able to, 
at a later date, resume the unimpeded bombardment of civilians.
    Turkey took a very bold step in intervening to stop the 
assault on civilians in Idlib, but it is unable to enforce a 
civilian protection mechanism on its own. That is the words of 
the Turkish government, and that is not my analysis. Turkey has 
asked the international community, the United States, and NATO 
for more support to support its efforts in Northwest Syria, and 
it is something that we have been asking for, for many years: 
for a no-fly zone and for civilian protection.
    In just 60 days, 1 million people were forced out of their 
homes and displaced by the latest offensive, and there are 
still 200,000 who are without any shelter. So if that is the 
scale of the crisis that we have seen so far, it is impossible 
for us to even imagine what would happen if, as you said, the 
Assad regime was successful in retaking all of Idlib. The 
crisis would be of an unimaginable scale. And for that reason, 
before we talk about sending more humanitarian assistance to 
those who have been displaced most recently, we need to stop 
the ongoing offensive and return the Assad regime forces back 
to the lines where they were in 2018 so that those civilians 
who have been displaced can return to their homes.
    And after that, we need to go back to the U.N. and force 
the U.N. to apply the correct interpretation of U.N. Security 
Council Resolution 2254, which has been misinterpreted because 
of the pressure from the Russian government. The Constitutional 
Committee, which has come out of the 2254 resolution, is not a 
solution for the crisis in Syria. The Syrian people never went 
to the streets or called for a new constitution. The problem in 
Syria is not with the constitution. It is with who is 
implementing the constitution.
    The solution for Syria is a stop to all of the hostilities, 
accountability for all those who have committed war crimes, and 
a transitional governing body which can allow the Syrians who 
have been displaced from their homes to be able to return to 
their homes safely. So we don't want to see Bashar al-Assad in 
the next year receiving a Nobel Peace prize because after all 
that he has committed, he simply signs a peace agreement with 
the opposition.
    Senator Shaheen. I cannot imagine anyone in the civilized 
world who would believe that Assad should be the recipient of 
any kind of prize for any peace because all he has done is 
commit crimes against his own people, and he should be held 
accountable for that.
    Mr. Al Saleh. [Interpreted.] Thank you.
    Senator Shaheen. And I believe this committee will do 
everything we can to try and support that. Thank you, Mr. 
Chairman.
    The Chairman. Thank you, Senator Shaheen. Thank you to our 
witnesses, a sincere thank you. Brave people giving us a lot to 
think about. Your testimony here today is going to become very 
public in the world. Thank you for your bravery, and thank you 
for coming here today.
    For the members of the committee, the record will remain 
open until the close of business on Friday. With that, the 
committee is adjourned.
    [Whereupon, at 12:03 p.m., the committee was adjourned.]

                           [all]
</pre></body></html>
